OIG Investigative Reports,Millcreek Township, PA., January 21, 2014 - Millcreek Township School District Agrees to Pay Government $350,000 to Resolve Allegation of Improper Medicaid Reimbursement
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE  DISTRICT OF PENNSYLVANIA
NEWS
Millcreek Township School District Agrees to Pay Government $350,000 to Resolve Allegation of Improper Medicaid Reimbursement
FOR IMMEDIATE RELEASE
January 21, 2014
The United States Attorney's Office for the Middle District of Pennsylvania announced that Millcreek Township School District has agreed to pay the United States $350,000 to resolve allegations that it submitted improper claims to the Medicaid-funded School Based Access Program.  Millcreek Township School District is the public school system for students residing in Millcreek Township, Pennsylvania, a suburb of Erie.
According to United States Attorney Peter J. Smith, Millcreek Township School District has agreed to pay $350,000 to resolve allegations that from August 11, 2005, through June 28, 2007, the School District improperly submitted claims to the Pennsylvania School Based Access Program for payment when those claims did not satisfy the necessary program requirements.  Payment is due within 60 days from the date of the Settlement Agreement (January 14, 2014).
The Pennsylvania School Based Access Program provides federal Medicaid reimbursement to schools for health related services provided by those schools to special needs students as part of an Individualized Education Plan.  Schools submitting claims to Access for payment must satisfy a number of requirements, and the amount of reimbursement depends on the type of service performed.
The U.S. Attorney's Office in Harrisburg had jurisdiction because Access is managed by the Pennsylvania Department of Public Welfare and the Pennsylvania Department of Education, both of which are based in Harrisburg.
In regard to Millcreek, the government determined that the School District submitted Access claims and received federal reimbursement for claims that were improper due, generally, to discrepancies including the absence of recipients on dates billed for services, claims for non-compensable services, improper grouping of services for billing purposes, lack of adequate documentation, and claims for unlisted services.  The specific types of violations are set out in the Settlement Agreement.  (A copy of the Settlement Agreement is available from the U.S. Attorney's Office on request.)
The U.S. Attorney's Office credited the assistance provided by the Pennsylvania Department of Public Welfare, which conducted the audit of Millcreek Township School District's Access claims.  The U.S. Attorney's Office also acknowledged Millcreek Township School District's cooperation with the investigation.  The Settlement Agreement is not an admission of liability by the School District.
The case was investigated by the U.S. Department of Health and Human Services, Office of Inspector General, and the U.S. Department of Education, Office of Inspector General.  The case was handled by Assistant United States Attorneys D. Brian Simpson and Anthony Scicchitano, Civil Division, United States Attorney's Office.
****
Top
Printable view
Last Modified: 01/23/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov